           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF OKLAHOMA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2000

   November 2001   A-77-02-00004




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        ",," s£cv
                                                       :J(j~.;.,
                                                      w/"'Us~~
                                                      \~ IIIII11 ~~
                                                         'J\tIST\l.t'
                                          SOCIAL         SECURITY
                                          Ottlce or tne InspectOr General
MEMORANDUM
Date:   NOV 29 2001                                                             Refer To:
        Dan Sweeney
To:     Acting Director
        Management      Analysis   and Audit   Program    Support       Staff


        Assistant Inspector General
         for Audit

        Single Audit of the State of Oklahoma for the Fiscal Year Ended June 30, 2000
        (A- 77 -02-00004 )

        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the State of Oklahoma for the Fiscal Year ended June 30, 2000. The Oklahoma
        State Auditor's Office performed the audit and its reports on compliance and internal
        controls are attached (see Appendix A). The Department of Health and Human
        Services' desk review concluded that the audit met Federal requirements (see
        Appendix B).

        The Oklahoma Disability Determination Services (DDS) performs disability
        determinations under SSA's Disability Insurance (Dl) and Supplemental Security
        Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
        for 100 percent of allowable costs. The Oklahoma Department of Rehabilitation
        Services (DRS) is the Oklahoma DDS's parent agency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Dl and
        SSI programs are identified by CFDA number 96. SSA is responsible for resolving
        single audit findings reported under this CFDA number.

        The single audit reported the following findings (see Appendix C):

        .   DRS did not have a disaster recovery plan to be followed in the event of a disaster
            that adversely affects the operations of the Department. The corrective action plan
            indicates   that a disaster   recovery   plan is being developed.

            Procedures were not in place to ensure that only authorized personnel had
            appropriate access to mainframe data. In addition, the computer room did not have
            a fire suppression system. The corrective action plan indicates that a visitor's log
            will be established next to the computer room door, and a new computer room
            configuration is being developed.
Page 2 -Dan Sweeney

.    Funds were not drawn in accordance with the terms of the Cash Management
     Improvement Act (CMIA) agreement. The corrective action plan indicates that
     actions will be taken to comply with the CMIA agreement.

We recommend that SSA ensure that DRS:

1 Implemented a disaster recovery plan that addresses policies and procedures to be
     followed in the event of a disaster so that the Oklahoma DDS can continue
     operations.

2    Established procedures to allow only authorized personnel access to the computer
     facilities.

3. Installed necessary safeguards to protect the computer facilities against
   environmental factors.

4.   Developed procedures   for drawing   Federal funds in accordance   with the terms of the
     CMIA agreement.                                                          """--- ;;


The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Appendix D).

     DRS did not have a system in place to adequately document the personnel costs
     charged to Federal programs.

     DRS did not have an approved method to allocate direct and indirect costs to its
     program.

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.


                                            ~~

                                            Steven   L.   Schaeffer




Attachments
Appendix A
Page 1 of 5
Appendix A
Page 2 of 5
Appendix A
Page 3 of 5
Appendix A
Page 4 of 5
Appendix A
Page 5 of 5
Appendix B
Page 1 of 11
Appendix B
Page 2 of 11
Appendix B
Page 3 of 11
Appendix B
Page 4 of 11
Appendix B
Page 5 of 11
Appendix B
Page 6 of 11
Appendix B
Page 7 of 11
Appendix B
Page 8 of 11
Appendix B
Page 9 of 11
Appendix B
Page 10 of 11
Appendix B
Page 11 of 11
Appendix C
Page 1 of 4
Appendix C
Page 2 of 4
Appendix C
Page 3 of 4
Appendix C
Page 4 of 4
Appendix D
Page 1 of 2
Appendix D
Page 2 of 2
                   Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                               Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                   Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                             Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
